ANALYSIS OF PERSONNEL RECORDS IMAGING
SYSTEM (PRIS) SYSTEM/BACKUP FAILURES
AND PERFORMANCE REVIEW AND
DEVELOPMENT (PR&D) DATA EXPOSURE

        Audit 2007-039T-01
          July 25, 2007




          TVA RESTRICTED INFORMATION
Synopsis

   We conducted a review to determine (1) the root causes for the
   PRIS backup and server failures and (2) whether data
   recovered was adequately protected. In summary, we
   determined:
    – The PRIS backup failure was due to (1) human error and (2) the
      lack of proper controls which would have detected PRIS was no
      longer on the master backup schedule and resulted in not having
      backups performed for PRIS.
    – The PRIS server failure was due to hardware failures whose impact
      was magnified by human error.
    – The PR&D data was not adequately secured when regenerated for
      recovery efforts.


                      TVA RESTRICTED INFORMATION                        2
Background

     PRIS is the official repository for TVA personnel documents
      such as employment applications, offer letters, disciplinary
      letters, performance evaluations, termination papers, etc.
     In March 2007, PRIS had two disk drive failures.
     As Information Services (IS) began work to recover the PRIS
      system, they discovered a system backup had not been
      performed.
     IS began pursuit of other options to restore the data.




                        TVA RESTRICTED INFORMATION                   3
Timeline
  PRIS Backup Failure               PRIS Server Failure                    PR&D Data Exposure
           June 2006                         March 2007                             March 2007

  Chattanooga Master Backup             PRIS Server Disk Failure 1         PR&Ds regenerated for input into
  Server replacement –June 2006              March 12, 2007                PRIS



                                    Contractor replacing disk
                                    observes disk not rebuilding –         Regenerated PR&Ds placed in
                                    informs System Administrator           unsecured share – March 28, 2007



                                     No follow-up action to make sure      [Redacted] employee copies PRD
                                    disk drives are correctly rebuilding   information to laptop. Extent of
                                                                           compromise unknown.


                                       PRIS Server Disk Failure 2
                                             March 15, 2007
                                        Server was functional for          [Redacted]
                                      approximately 2 hours before
                                          catastrophic failure



 PRIS Server Backup schedule was
                                   Lack of backup data discovered
 not moved to new master backup
                                   when disk drive hardware
 server.
                                   destroyed



                                      IS and HR formulate plan to
                                     rebuild PRIS data from other
                                               systems


                                       TVA RESTRICTED INFORMATION                                             4
Objectives

     Perform a root cause analysis of the PRIS system and backup
      failures
     Determine if data recovered was adequately protected




                        TVA RESTRICTED INFORMATION                  5
Scope/Methodology

     Interviewed IS, Human Resources, and Power System
      Operations (PSO) personnel
     Reviewed IS Policies and Procedures
     Reviewed documentation
      – HP Service Desk (HPSD) information
      – E-mails related to the PRIS and PR&D events
      – PRD folder on temporary share server
     Fieldwork was conducted in April and May 2007
     This audit was performed in accordance with generally accepted
      government auditing standards.


                       TVA RESTRICTED INFORMATION                  6
Findings

     Root cause of the PRIS backup failure was human error and the
      lack of proper controls which would have detected:
       – The master backup schedule was not properly converted in June
         2006; and
       – A PRIS backup did not exist.
     Root cause of the PRIS server failure was hardware failures
      whose impact was magnified by human error.
     The PR&D data was not adequately secured when regenerated
      for recovery efforts.




                         TVA RESTRICTED INFORMATION                      7
PRIS Backup Failure

     Cause 1: Human error and lack of controls to ensure the
      proper conversion of the backup schedules
      – Inadequate Planning for Conversion
             Coordination with system administrators to verify backups was not
              adequate – System administrators were notified of the conversions;
              however, there was no explicit requirement for the administrators to
              verify a backup occurred after the move.
             Lack of segregation of duties – No independent verification to ensure
              all backup schedules were converted to the new system instead the
              same person who performed the conversion also verified the
              conversion.
             Test plan and result documentation not appropriately maintained.



                           TVA RESTRICTED INFORMATION                                 8
PRIS Backup Failure (cont’d)

     Cause 2: Lack of controls to detect a PRIS backup schedule
      did not exist after June 2006
      – No periodic verification required to ensure the master backup
        schedule is consistent with the customer requirements as defined
        in the service level agreements
      – No automated tool to detect a server was not being backed up
             Funds were budgeted in fiscal year (FY) 2005 to purchase an
              automated tool which would have identified servers not being backed
              up. These funds were used for infrastructure improvements to
              improve throughput and efficiency of backup operations.




                           TVA RESTRICTED INFORMATION                               9
Other Backup Failures

     During the review, the following came to our attention:
       – September 2006 – [Redacted] requested data restore of the [Redacted]
         system and data was not available
              Data regarding the [Redacted] was to be backed up to the Regional Operations
               Center (30 day retention) and Chattanooga (permanent retention).
              Chattanooga backup began failing and was removed from the schedule by
               backup personnel because of assumption the Chattanooga backup was a
               duplicate.

              Data lost for the period March through August 2006.

       – November 2006 – Manual Check found a missing backup client
              Backup personnel were reconciling client list and found one client was missing
                 – No documentation to support being dropped from backup
                 – Lack of a backup caught by IS and no data loss occurred



                              TVA RESTRICTED INFORMATION                                        10
Backup Failures

     IS Actions Taken:
       – Implemented a process to verify servers added or dropped from the
         master backup schedule are accurate and have proper supporting
         documentation
       – Developed a monitoring program for Windows servers to identify
         those where no backup was performed
     TVA management requested the Office of the Inspector General
      (OIG) perform a verification of backups. This review is currently
      underway (Audit 2007-039T-02).




                          TVA RESTRICTED INFORMATION                      11
PRIS Server Failure
     PRIS server had two hard drive failures in March 2007
       – Server was six to seven years old; normal life span for a server is five years
       – Impact from drive failures magnified by human errors
               System Administrator was not diligent in monitoring drive replacement process
                  – When first drive started failing, the system administrator did not verify the existence of a
                    backup or request a backup be performed
                  – The server hard drive configuration was considered stable; therefore, system
                    administrator assumed the drives would rebuild automatically
                  – Insufficient follow-up after drive replacement to verify (1) rebuild process was successful
                    and (2) manual reconfiguration for this hardware type was performed to activate the hot
                    spare

       – HPSD, an asset management tool used by IS, did not have information
         regarding the criticality and recovery requirements of the systems
               HPSD did not have a Disaster Recovery level defined for PRIS.
               The Work Agreement for FY2007 with the business unit specified a DR level of B
                which requires a return to service of three to seven days with no more than 24
                hours of data loss. An internal IS email stated the disaster recovery work for
                PRIS-[Redacted] could be deleted. However, we could not locate a revised work
                agreement or any indication that the business unit had approved such a change.


                                 TVA RESTRICTED INFORMATION                                                   12
PR&D Data Exposure

     To help in the PRIS recovery, IS regenerated PR&D forms,
      which did not contain social security numbers, for
      approximately 9,000 employees for the period 2001 – 2006.
     IS personnel failed to exercise adequate security in the
      handling of sensitive data.
      – Sensitive information was placed on an unsecured temporary
        share where it was available for about two hours
      – Sensitive information was accessed by:
             [Redacted] employee who copied the forms.
             IS employee who viewed the folder on the server and reported the
              incident to the system administrators who initiated action to restrict
              access to the information.
     We could not determine conclusively the extent of exposure
      because (1) the temporary share was available to all
      employees and contractors with a TVA ID, and (2) there were
      no logs maintained for review.
                            TVA RESTRICTED INFORMATION                                 13
PR&D Data Exposure

     IS Actions Taken: A communiqué was issued to the IS
      supervising managers instituting a lock down on use of
      temporary shares for sensitive information and requiring
      100 percent training of IS personnel in Communication
      Practice 8.
     Subsequently, OIG performed a review of temporary share
      drives in TVA to determine if determine the extent to which
      personally identifiable information (PII) and/or other sensitive
      information is being stored on these drives.
       – We identified numerous instances of PII and sensitive information
         stored unsecurely on temporary share drives used by a broad
         spectrum of TVA employees. (See Audit 2007-10997 for
         additional information and recommendations.)


                         TVA RESTRICTED INFORMATION                          14
Recommendations

  1.   Ensure future upgrade projects include proper planning and controls
       such as an independent third-party verification of data/schedule
       moves and proper supporting documentation be maintained.

  2.   Implement a process to periodically verify the master backup
       schedule complies with customer requirements.

  3.   Review and consider purchasing automated solutions that would
       (1) detect servers not currently included in the master backup
       schedule and (2) monitor information flowing on the network and
       stored on servers which would help identify PII.

  4.   Implement a process to ensure (1) HPSD information regarding the
       service level and disaster recovery level matches the requirements
       in the service level agreements; and (2) changes to service level
       agreements, including non-funded work, are approved by the
       business unit responsible for the application(s).


                         TVA RESTRICTED INFORMATION                          15
Recommendations (cont’d)
  5.   Implement/update procedures for hardware replacement to include:
        – Checking HPSD for criticality of system data
        – Checking for backups when hardware failure warnings occur
        – Verifying disk drive configurations are restored to the appropriate settings
          after hardware replacement/repair is completed
        – Communicate/train system administrators on changes to the procedures

  6.   Implement/update TVA-wide training to emphasize employee and
       business unit responsibilities for properly securing data which contains
       personally identifiable and business sensitive information. Consider:
        – Targeting business units which routinely handle social security number
          and other PII for more frequent training
        – Including reminders to periodically review electronic and hard copy storage
          to ensure information is properly secured
  7.   See Audit 2007-10997, Review of Temporary Shares for Sensitive
       Information, for additional recommendations regarding properly
       securing sensitive information.
                            TVA RESTRICTED INFORMATION                               16
Recommendations (cont’d)

   TVA Management’s Comments (See Appendix for entire
   response)
   The Executive Vice President, Administration, and Chief Administrative
   Officer, agreed with our facts, conclusions, and recommendations with
   one exception. Management provided revised wording regarding the
   PRIS-[Redacted] work agreement discussed on page 12 of the report.

   Auditor’s Response
   We concur with management’s proposed actions to implement
   processes to reduce the risk of future server and backup failures. We
   have revised the wording on page 12 based on management’s
   response to the draft report.



                      TVA RESTRICTED INFORMATION                           17
APPENDIX
Page 1 of 2
APPENDIX
Page 2 of 2
